No. 19A1050
IN THE SUPREME COURT OF THE UNITED STATES
IN RE FEDERAL BUREAU OF PRISONS’ EXECUTION PROTOCOL CASES
JAMES H. ROANE, JR., ET AL., APPLICANTS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the RESPONSE IN OPPOSITION TO APPLICATION FOR A STAY OF THE
MANDATE PENDING DISPOSITION OF THE PETITION FOR A WRIT OF
CERTIORARI AND FOR AN ADMINISTRATIVE STAY, via e-mail and first-class mail,
postage prepaid, this 15th day of June 2020.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 15, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

IN RE FEDERAL BUREAU OF PRISONS’ EXECUTION PROTOCOL CASES
JAMES H. ROANE, JR., ET AL.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
Catherine Emily Stetson
Hogan Lovells US LLP
555 13th Street, N.W.
Washington, DC 20004-1109
202-637-5491
cate.stetson@hoganlovells.com

